                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1120200008                                                                    Page 1 of 1



         This investigation stemmed from a Proactive review of SBIR awards 1 to companies that may not
         have adequate research facilities. The Subject Compani received SBIR Phase I, Phase II, and
         Phase IIB 3 awards from the National Science Foundation (NSF). The initial NSF Office of
         Inspector General's (OIG) review revealed the Subject Company may have falsely described its
         office and laboratory space. The review also revealed a discrepancy between the general ledger
         for the Phase I award and the amount drawn out of the award.

         The PI4 and the two other principals 5ofthe Subject Company were interviewed. Through
         interviews and the production of supporting documentation, the Subject Company was able to
         dismiss NSF OIG ' s concerns about its facilities, and adequately explain the discrepancy between
         the general ledger for the Phase I award and the amount drawn out of the award.

         Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 ( 11 /02)
